   September 25, 2002




Acquisition

Defense Hotline Allegations
Concerning the Procurement of
the Seat Management Initiative
(D-2002-152)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ACS                   Affiliated Computer Services
ASD                   Assistant Secretary of Defense
BPA                   Blanket Purchase Agreement
C3I                   Command, Control, Communications, and Intelligence
CCA                   Clinger-Cohen Act
CIO                   Chief Information Officer
GSA                   General Services Administration
IT                    Information Technology
ITIPS                 Information Technology Investment Portfolio System
LAN                   Local Area Network
MIPR                  Military Interdepartmental Purchase Request
MOU                   Memorandum of Understanding
O&M                   Operation and Maintenance
OASD                  Office of the Assistant Secretary of Defense
OMB                   Office of Management and Budget
OSD                   Office of the Secretary of Defense
RFQ                   Request for Quotation
SLA                   Service Level Agreements
WHS                   Washington Headquarters Services
         Office of the Inspector General of the Department of Defense
Report No. D-2002-152                                                September 25, 2002
   (Project Number D2001CH-0032.002)

       Defense Hotline Allegations Concerning the Procurement of
                     the Seat Management Initiative

                                Executive Summary

Who Should Read This Report and Why? Officials of the Office of the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence) should
read this report because it discusses allegations made to the Defense Hotline as well as
the applicability of the Clinger-Cohen Act (Public Law 104-106) to the development of
the Seat Management initiative.

Background. We performed the audit in response to allegations made to the Defense
Hotline concerning the contracting for the Office of the Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence) Seat Management initiative and
the funding of the FirstGov Web site. Under Seat Management, contractors manage the
computing hardware, software, and support services that are provided to the Government
on the basis of a fixed price per seat. The complainant alleged that the Deputy Chief
Information Officer pressured Washington Headquarters Services to award the Seat
Management contract before election day in 2000 although no urgency existed; several
other problems with the contract award were present; and the Office of the Under
Secretary of Defense (Comptroller) was pressured to move money prior to Inauguration
Day to the General Services Administration for the DoD share of the FirstGov Web site.
FirstGov is the first major Government initiative that connects citizens to the products,
services, and information of the Federal Government. It provides a single Internet port of
entry for governments, citizens, businesses, and community groups to access more than
20,000 Federal Web sites on a 24-hour basis.

Results. In the rush to have the General Services Administration award the blanket
purchase agreement by November 6, 2001, for the Seat Management initiative, the Office
of the Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) inappropriately determined that the requirements of the Clinger-Cohen Act
were not applicable to the $452 million blanket purchase agreement ($19 million
obligated through February 2002). However, we did not substantiate the allegation that
pressure was present to transfer by January 19, 2001, funding for the FirstGov Web site.
The planning for the Seat Management initiative did not:

   •   identify the return on investment for Seat Management,

   •   quantify benefits and risks of Seat Management, and

   •   prescribe performance measures that would measure how well Seat Management
       would support DoD programs.
As a result, DoD was unable to assess whether a favorable return on investment and
expected performance of the Seat Management initiative were realized on the General
Services Administration blanket purchase agreement. On June 28, 2002, the Office of
the Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) terminated the blanket purchase agreement for convenience. The Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence) needs to
ensure that future information technology procurements for that office, through the
General Services Administration or another Federal agency, comply with statutory and
regulatory requirements applicable to DoD. (See the Finding section for a detailed
discussion of the results and recommendation.)

DoD Comments. The Principal Director, Deputy Assistant Secretary of Defense
(Deputy Chief Information Officer) responded that the Office of the Assistant Secretary
of Defense (Command, Control, Communications, and Intelligence) disagreed with the
conclusion of the report that the Office of the Assistant Secretary did not comply with the
Clinger-Cohen Act. However, the Deputy Chief Information Officer agreed that the
Office of the Assistant Secretary may not have maintained adequate documentation. The
Deputy Chief Information Officer stated that to rectify any real or perceived deficiencies
in complying with the Clinger-Cohen Act, the Office of the Assistant Secretary is
implementing the Information Technology Investment Portfolio System.

Audit Response. The Deputy Chief Information Officer comments were partially
responsive. Although the Office of the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) believes that it complied with the intent of
the Clinger-Cohen Act, no evidence or explanation was offered as to how it complied.
We believe that officials involved with the Seat Management initiative made an
erroneous and conscious decision that key requirements of the Clinger-Cohen Act did not
apply. The Office of the Assistant Secretary‘s implementation of the Information
Technology Investment Portfolio System provides users with the ability to support the
selection, control, and evaluation phases of an information technology capital planning
and investment control process. The system supports internal and external reporting
requirements as defined by the Office of Management and Budget Circular No. A-11. In
response to the final report, we ask that the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) provide additional comments as to how and
when implementation of the Information Technology Investment Portfolio System will be
mandated. We request that those comments be provided by November 25, 2002.




                                            ii
Table of Contents

Executive Summary                                                             i
Background                                                                    1

Objectives                                                                    3

Finding
     Procurement of the Office of the Assistant Secretary of Defense
      (Command, Control, Communications, and Intelligence) Seat
      Management Initiative                                                   4

Appendixes
     A. Scope and Methodology                                                11
           Prior Coverage                                                    12
     B. Summary of Allegations and Audit Results                             13
     C. Report Distribution                                                  15

Management Comments
     Assistant Secretary of Defense (Command, Control, Communications, and
       Intelligence)                                                         17
     General Services Administration                                         19
Background
    The audit was performed in response to allegations to the Defense Hotline and addresses
    the contracting and funding of information technology initiatives.

    Seat Management. As part of the DoD Seat Management process, a contractor manages
    and supports the hardware, software, peripherals, networks, maintenance, education, and
    support services (including help desk, asset management, maintenance, and device
    management) to manage, operate, and maintain the Office of the Secretary of Defense
    (OSD) desktop environment. Hardware, software, and support service costs are combined
    into a desktop and provided to the Government on the basis of a fixed price per seat. With
    the General Services Administration (GSA) Seat Management program, a client agency
    determines the level of desktop computing service and support required, as well as the
    commercial-off-the-shelf software and hardware needed to support the mission.

    Office of the Assistant Secretary of Defense (Command, Control, Communications,
    and Intelligence). The Office of the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence), (OASD[C3I]), is the principal OSD staff assistant for
    development, oversight, and integration of DoD policies and programs relating to the
    strategy of information technology (IT) for DoD. The Assistant Secretary of Defense
    (ASD[C3I]) serves as the Chief Information Officer (CIO) for DoD. The specific
    responsibilities of the CIO include overseeing the performance of IT programs and
    measuring program progress through system milestone reviews. The Deputy CIO was
    significantly involved with the Seat Management initiative and DoD funding of the
    FirstGov Web site.

    FirstGov. FirstGov is the first major Government initiative that supports the goal of
    connecting citizens to the products, services, and information of the Federal Government.
    The program supports a single Internet port of entry that provides governments, citizens,
    businesses, and community groups with one-stop access to more than 20,000 Federal Web
    sites on a 24-hour basis. For its share of the FirstGov Web site, DoD agreed to pay
    approximately $4.6 million in FY 2000 through FY 2002 to GSA.

    Memorandum of Understanding and Interagency Agreement for Information
    Technology Services and Products. GSA entered into a Memorandum of Understanding
    (MOU) with OASD(C3I) in July 2000 to provide support services to OASD(C3I) through
    blanket purchase agreements or delivery/purchase orders issued to contractors. The
    Deputy CIO for DoD briefed a proposal to the OSD IT Executive Committee on
    July 26, 2000. The Committee expressed concern that the implementation of the Seat
    Management initiative was moving too fast. Despite the concern, a blanket purchase
    agreement (BPA) with GSA was sized to accommodate all OSD Components that chose to
    participate in the Seat Management initiative. On July 21, 2000, OASD(C3I) entered into
    an interagency agreement with GSA to provide OASD(C3I) with procurement, acquisition,
    and project management support for outsourcing the OASD(C3I) Seat Management
    operational IT environment (including management of the desktop, network, and base
    level, as well as full life-cycle management of applications).

    Blanket Purchase Agreement for Seat Management. Headquarters GSA issued a
    competitive Request for Quotation (RFQ) on September 22, 2000, to 18 contractors prior to
    awarding a single BPA for the OASD(C3I) Seat Management program. Of the 18
    contractors solicited, 2 contractors submitted quotes in response to the RFQ. GSA
    awarded Lockheed Martin the BPA on November 6, 2000. The other contractor, Affiliated
                                              1
    Computer Services (ACS) Government Solutions Group, Incorporated, filed a protest but
    later withdrew its protest. The period of performance for the Operation and Maintenance
    (O&M) funded BPA was 5 base years, with five 1-year option periods, and the maximum
    value of orders placed under the BPA was $452 million. Under the terms of the BPA,
    Lockheed Martin would lease, manage, and support the hardware, software, peripherals,
    networks, maintenance, education, and support services to operate and maintain the
    OASD(C3I) Seat Management initiative.

    Washington Headquarters Services. Washington Headquarters Services (WHS) is the
    DoD field activity that provides a broad variety of operational and support services to
    specified DoD Components in the National Capitol Region and the public. As the holder
    of funds for the OASD(C3I), WHS transfers funds to GSA by way of a Military
    Interdepartmental Purchase Request (MIPR), for orders placed against the IT BPA for the
    Seat Management initiative. DoD uses MIPRs as the primary document to order goods or
    services from other DoD Components, as well as other Government agencies.


Statutory and Regulatory Requirements for Information Technology
    The Clinger-Cohen Act of 1996. The Clinger-Cohen Act (CCA) of 1996, Public
    Law 104-106, which is substantially codified at title 40, chapter 25, United States Code
    (40 U.S.C. 25), requires Federal agencies to implement a process for maximizing value as
    well as assessing and managing the risks of IT investments.

    The Director of the Office of Management and Budget (OMB) is required by 40 U.S.C.
    1412 to develop, as part of the budget process, a process for analyzing, tracking, and
    evaluating the risks and results of all major capital investments an executive agency for
    information systems makes. Subsequently, OMB implemented that requirement with
    respect to Federal agencies in OMB Circular A-130.

    Office of Management and Budget Circular No. A-130. OMB Circular A-130,
    “Management of Federal Information Resources,” issued November 30, 2000, requires that
    before Federal agencies make investments in information systems, they must determine if
    the function to be supported by the system should be performed by the agency or by the
    private sector or another agency, and be redesigned to improve efficiency.

    Office of Management and Budget Circular No. A-11, Part 3. OMB Circular A-11,
    Part 3, “Planning, Budgeting, and Acquisition of Capital Assets,” issued in July 2001,
    requires agencies to establish policies for planning, budgeting, acquiring, and managing of
    capital assets, including information technology.

    DoD Instruction 7041.3. DoD Instruction 7041.3, “Economic Analysis for
    Decisionmaking,” November 7, 1995, directs development of an economic analysis that
    assesses cost and benefits for each feasible alternative system. The economic analysis,
    coupled with analysis of alternative systems, allows for a full and complete basis for
    evaluating the feasibility of alternatives.




                                              2
Objectives
    The primary audit objective was to determine the validity of the allegations made to the
    Defense Hotline concerning the contracting for the OASD(C3I) Seat Management
    initiative and the funding for the FirstGov Web site. See Appendix A for a discussion of
    the audit scope and methodology, and a list of prior coverage related to the audit objective.
    See Appendix B for a discussion of the allegations made to the Defense Hotline and our
    conclusions on the allegations.




                                              3
           Procurement of the Office of the Assistant
           Secretary of Defense (Command, Control,
           Communications, and Intelligence) Seat
           Management Initiative
           In the rush to award the BPA, OASD(C3I) inappropriately determined that the
           requirements of the CCA (Public Law 104-106) were not applicable to the Seat
           Management initiative and thus did not:

               •   identify the return on investment,

               •   quantify the benefits and risks of Seat Management, and

               •   prescribe performance measures that would measure how well Seat
                   Management would support DoD programs.

           The statutory requirements within the CCA were not performed because the Deputy
           CIO believed that the analyses to identify quantifiable benefits and risks of the
           investment and establish performance measures were not applicable to the Seat
           Management initiative; the Deputy CIO wanted the contract for the initiative
           awarded prior to the Presidential election in 2000, which left little time for the
           analyses; and the GSA contracting officer did not obtain assurances that
           requirements were met. As a result, DoD was unable to assess whether a favorable
           return on investment and expected performance of the Seat Management initiative
           were being realized on the GSA BPA valued at $452 million ($19 million obligated
           through February 2002) awarded for Seat Management. On June 28, 2002,
           OASD(C3I) terminated the BPA for convenience because of performance risks and
           the desire to have a common IT provider for the Pentagon Reservation.


Seat Management Initiative
    Deputy CIO for OASD(C3I). The Deputy CIO assisted in funding cross-Government
    initiatives after being assigned to the Interagency CIO Council that supports the CCA.
    Initially, the Deputy CIO pursued the award of a Seat Management contract for all of OSD.
    The goal of the Seat Management initiative was to improve the quality and reliability of IT
    services in OASD(C3I) and OSD at a predictable cost. In March 2001, the Deputy CIO
    left OASD(C3I) to become president of Government Services at Commerce One,
    Incorporated.

    Acquisition of the Seat Management IT Outsourcing Initiative. The Deputy CIO
    signed an MOU for IT solutions on July 14, 2000, authorizing GSA to begin the
    contracting action for the OSD Seat Management IT initiative. The Deputy CIO briefed a
    proposal to the OSD IT Executive Committee on July 26, 2000. The IT Executive
    Committee concluded that the Seat Management initiative should be brought along slowly
    to ensure that the initiative would be accomplished without failure. A high ranking official
    at OASD(C3I) stated the OASD(C3I) requirement for the Seat Management initiative was
    based on the need to convert its current IT network and desktops from the Nonclassified
    Internet Protocol Router Network to the SECRET Internet Protocol Router Network.
    OASD(C3I) stated the requirement was based on five security vulnerabilities.
                                             4
   •   The Nonclassified Internet Protocol Router Network was vulnerable from an
       information assurance capability standpoint.

   •   C3I work was too sensitive to use unclassified networks.

   •   C3I users needed expanded SECRET-level connectivity with the Combined
       Intelligence Center and the intelligence community.

   •   Many C3I users needed access to classified Automatic Digital Network/Defense
       Message System messages at their desktops.

   •   Common on-line knowledge was vulnerable because it was being expanded to
       include programmatic information for intelligence, surveillance, and
       reconnaissance programs.
The main goals of the Seat Management initiative were to:

   •   improve the quality and reliability of IT services in C3I and OSD through Service
       Level Agreements (SLA);

   •   correct deficiencies in security, licensing, and asset management;

   •   identify hidden costs by maintaining technology refreshing, licensing, and asset
       management;

   •   identify costs associated with operating networks, servers, and hosting applications;
       and

   •   control cost and deliver IT services at a predictable cost.

The OASD(C3I) wanted a rapid implementation of an end-to-end solution to the security
vulnerabilities mentioned previously. According to OASD(C3I) officials, they could not
adequately fix their vulnerabilities because of a shortage of qualified personnel.
OASD(C3I) representatives stated that the Seat Management initiative would provide a
way to quickly and efficiently address security and network concerns.

On September 22, 2000, GSA issued an RFQ to 18 companies. The RFQ required that
offeror proposals be submitted by October 17, 2000. A Source Selection Evaluation Board
from OASD(C3I) met with an interagency rating panel of experts and support staff on
October 20 and 23, 2000, to hear technical proposals submitted in response to the RFQ.
Two contractors, ACS Government Solutions Group, Incorporated, and Lockheed Martin,
responded to the RFQ. An interagency rating panel reviewed the two proposals submitted,
and the evaluators and the source selection authority decided on October 24, 2000, that
Lockheed Martin had submitted the best value proposal consistent with the evaluation
factors, and should be awarded the BPA. The BPA was awarded on November 6, 2000.
See Appendix B for more details concerning the acquisition of the Seat Management IT
initiative.

Funding for the Acquisition. The OASD(C3I) provided GSA about $19.2 million in
O&M funds from November 2000 through February 2002 to procure Seat Management
services. The following table lists the interagency agreements that OASD(C3I) sent to
GSA to fund the Seat Management initiative and the amount funded and billed as of
February 2002.

                                          5
                                OASD(C3I) Seat Management Funding

     IA1 Number     Date Issued    MIPR Number       Funded       Billed by LMCO2       Balance

     21045DED        11/02/00      DHIA10042     $ 1,300,000.00     $ 1,300,000.00 $        —
     21123DED        02/26/01      DSIA10101       2,000,000.00       1,998,852.23       1,147.77
     21385DED        04/19/01      DSIA10137       2,000,000.00       1,897,281.35     102,718.65
     21417DEC        07/03/01      DSIA10208       1,660,000.00       1,600,000.00      60,000.00
     21430DEC        08/09/01      DSIA10194         300,000.00         170,290.21     129,709.79
     21484DEC        09/05/01      DSIA10211         270,000.00            —           270,000.00
     21485DEC        09/05/01      DWIA00152       1,257,000.00          11,206.00 1,245,794.00
     21546DES        09/26/01      DHIA10230         150,000.00         150,000.00          —
     21547DES        09/26/01      DHIA10228         332,046.79         332,046.79          —
     21549DES        09/17/01      DHIA10224          61,201.21          61,201.21          —
     22102DES        12/11/01      DHIA20047       2,140,000.00       2,140,000.00          —
     22104DES        02/15/02      ERIA10239       5,230,329.00            —         5,230,329.00
     22110DES        11/27/01      DHIA20030         628,530.12         628,530.12         —
     22118DES        12/14/01      DHIA200360      1,864,750.41       1,864,000.00         750.41
     22183DES        12/19/01      DHIA20070          50,000.00          50,000.00         —

                  Total                          $19,243,857.53     $12,203,407.91 $7,040,449.62
     1
       Interagency Agreement
     2
       Lockheed Martin


    According to an OASD(C3I) official, tasks accomplished and items procured include the
    project implementation of the Seat Management transition, catalog items (computers and
    printers), help desk, Common Access Card, call center move, and network upgrades.
    Lockheed Martin provided support on a labor-hour basis and billed other direct costs (such
    as local travel and incidental costs) on a cost-reimbursable basis.


Clinger-Cohen Act Compliance
    The OASD(C3I) did not comply with provisions of the CCA to identify the return on
    investment, quantify benefits and risks of the initiative, and establish performance
    measures for use in evaluating the project.

    OASD(C3I) Cost Benefit and Business Process Reengineering Analyses. OASD(C3I)
    officials identified the need for the Seat Management initiative based on security
    vulnerabilities; however, they could not internally fix their vulnerabilities because of
    personnel shortages. The Seat Management initiative, which provides the means to quickly
    and efficiently address security and network concerns, was an attempt to reengineer the
    OASD(C3I) business processes. To assist the evaluation, OASD(C3I) obtained a detailed
    cost breakdown of the proposal each vendor submitted. However, the OASD(C3I)
    analyses of the data were incomplete because the analyses failed to examine the feasibility
    of potential alternative options for improving the security vulnerabilities and did not
    establish quantifiable performance metrics for the Seat Management initiative. According
    to OMB Circular A-130 and OMB Circular A-11, Part 3, an agency must demonstrate how
    it manages its IT investments. The OASD(C3I) did not identify a quantifiable
                                                6
measurement for determining the net benefits and risk associated with its Seat Management
initiative. In the future, OASD(C3I) should ensure that IT procurements comply with
guidance in OMB Circular A-130 and OMB Circular A-11, Part 3.

Concerns With Seat Management. We identified two written requests from other DoD
organizations for OASD(C3I) to perform the required analyses before the Seat
Management initiative began. The Director of Information, Operations, and Reports, WHS
in an August 9, 2000, memorandum to the Acting Director, Network Operations Division,
OASD(C3I) voiced reservations about the Deputy CIO decision to contract for the Seat
Management function, stating that, “the size and scope of the project had not been made
clear.” The Director of Information, Operations, and Reports, WHS further stated that the
Information Technology Reform Act (referred to in this report as the CCA) emphasizes the
requirements of:

   •   cost-benefit analysis,
   •   risk-adjusted return on investment, and

   •   application of specific quantitative and qualitative criteria for comparing and
       prioritizing alternative information systems investment projects.

The Director of Administration and Management, OSD expressed the following concerns
in a September 12, 2000, memorandum to OASD(C3I).

   •   Requirements analyses of the IT environments in OSD were absent, specifically,
       “the need to re-engineer their business process before investing in IT as required by
       the CCA.”

   •   A lack of understanding of the overall OSD IT environment and the speed at which
       the outsourcing of IT being pursued existed.

   •   The outsourcing initiative draft statement of objectives and related business
       requirements make OSD vulnerable to steadily increasing and uncontrolled costs.

The Director further noted that under DoD Directive 8220.1, “Single Agency Manager for
Pentagon Information Technology Services,” March 1, 1995, the Network Infrastructure
Services Agency-Pentagon was responsible for the renovated Pentagon backbone network
and was currently managing the OSD legacy backbone. The Director stated that separating
the “OSD backbone” by giving it to a third party might incur “finger pointing” if there
were problems. The Director noted that OASD(C3I) needed to acknowledge the DoD
Directive and limit network outsourcing to OSD subnetworks because of the eventual
linkup of all OSD subnetworks. The Director’s concerns should have caused OASD(C3I)
to reexamine the feasibility of potential alternative options for improving its security
vulnerabilities, or at least ensure that the Seat Management initiative would mesh with the
other OSD components.

No documentation was present that demonstrates OASD(C3I) responded to the written
inquiries concerning the required analyses. We asked why the required analyses were not
performed. According to OASD(C3I) officials, the Deputy CIO stated that the
development of documentation was unnecessary. OASD(C3I) representatives also stated
that the Deputy CIO directed them to focus on completing the statement of objectives, and
subsequently, never responded to the two inquires WHS and the Director of Administration
and Management made. According to a high ranking OASD(C3I) official, the Deputy CIO

                                         7
     did not ensure that OASD(C3I) completed the required analyses prior to initiation of the
     Seat Management IT procurement despite requests by the Director of Administration and
     Management for OSD.

     Contracting Officer Authority and Responsibilities. The DoD Deputy CIO signed an
     MOU in July 2000 authorizing GSA to begin contracting functions of the OSD Seat
     Management IT initiative. The GSA contracting officer stated that there was never any
     discussion with officials at OASD(C3I) regarding the requirements of CCA and if the Act
     requirements had been satisfied. Further, the contracting officer stated that OASD(C3I)
     was responsible for ensuring that the analyses were performed. However, according to
     Federal Acquisition Regulation 1.602, no contract shall be entered into unless the
     contracting officer ensures that all requirements of law, executive orders, regulations, and
     all other applicable procedures have been met. The GSA contracting officer should have
     obtained assurances that the CCA requirements were met. We referred this issue for
     further review to the Inspector General of GSA.


Status of Seat Management Initiative
     In December 2001, OASD(C3I) officials stated that they were becoming increasingly
     dissatisfied with the level of service Lockheed Martin was providing, because of slow
     progress by Lockheed Martin from initial operational capability to full operational
     capability. We requested that OASD(C3I) provide specific instances when Lockheed
     Martin was unable to perform taskings under the BPA. OASD(C3I) officials stated they
     had just begun to document performance issues. If Lockheed Martin was not performing at
     designated levels, increased risks of cost escalations and the Seat Management initiative
     failing to provide the designated services existed. As of February 15, 2002, approximately
     $19.2 million had been obligated on the Seat Management initiative, and $12.2 million had
     been spent.

     We contacted OASD(C3I) officials to obtain an update on the status of the Lockheed
     Martin performance. On February 21, 2002, an OASD(C3I) official stated that
     OASD(C3I) was closely monitoring the Seat Management BPA with Lockheed Martin for
     three reasons. First, under Program Budget Decision 431R, local area networks (LANs)
     are to be converted to a sole-source provider for common IT services throughout the
     Pentagon Reservation. OASD(C3I) is the first DoD Component designated to convert its
     LANs. The development will nullify the original assumption for creating the BPA with
     Lockheed Martin, and will make holding Lockheed Martin accountable to service levels
     that will be beyond its control difficult. Second, the economies of scale will not be
     achieved with the IT environment parceled out to various organizations. Finally, other
     OSD Components have not embraced the BPA as envisioned when the initiative began.
     The developments, in addition to the failure to identify the return on investment and
     quantify benefits and risks of Seat Management, or prescribe performance measures to
     determine how well Seat Management would support DoD programs, were sufficient
     grounds for OASD(C3I) to reevaluate the entire effort. On June 28, 2002, OASD(C3I)
     terminated the BPA for convenience.


FirstGov Web Site
     Development of FirstGov. A Presidential memorandum issued on December 17, 1999,
     asserted the need for the development of a system for helping citizens gain one-stop access
                                              8
    to Government information and services. In September 2000, GSA responded to the
    Presidential memorandum by launching the FirstGov Web site with funding the Federal
    CIO Council and 22 other Federal agencies provided. The Federal CIO Council serves as
    the principal interagency forum for improving practices in the design, modernization, use,
    sharing, and performance of Federal Government agency information resources. The
    Deputy CIO was a member of the Federal CIO Council.

    FirstGov Funding Pressure. We did not substantiate the allegation that the Office of the
    Under Secretary of Defense (Comptroller) was pressured to move money to GSA prior to
    the 2000 Presidential Inauguration for the DoD share of the FirstGov Web site. On
    June 26, 2001, WHS personnel stated that the urgency of obtaining funds for the FirstGov
    Web site stemmed from senior DoD officials participating in the Federal CIO Council
    meetings during FY 2000. We reviewed meeting minutes dated from February 24, 2000,
    through July 18, 2001. However, none of the minutes reviewed indicated discussions
    concerning the urgency of obtaining funds for the DoD portion of the FirstGov Web site.
    See Appendix B for a discussion of the details concerning the FirstGov allegation.


Conclusion
    Prior to GSA awarding the Seat Management initiative valued at $452 million, the
    OASD(C3I) did not adequately plan for the acquisition of the Seat Management initiative
    because it failed to identify the return on investment and quantify benefits and risks of Seat
    Management, or prescribe performance measures that would measure how well Seat
    Management would support DoD programs. As a result, the CCA may have been violated.
    Further, DoD will be unable to assess whether the cost benefits and performance of the
    Seat Management initiative are being realized. In addition, no guarantee existed that the
    BPA awarded was in the best interest of the Government, considering that OASD(C3I)
    terminated the BPA with Lockheed Martin for Seat Management services, although
    approximately $19.2 million had been obligated as of February 2002.


Recommendation, Management Comments, and Audit Response
    We recommend that the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) issue guidance to the staff that future information
    technology procurements for the Office of the Assistant Secretary of Defense
    (Command, Control, Communications, and Intelligence), through the General
    Services Administration or another Federal agency, must comply with guidance in the
    Office of Management and Budget Circular No. A-130 (issued in November 2000),
    Part 3 of the Office of Management and Budget Circular No. A-11, DoD acquisition
    standards, and the Clinger-Cohen Act.

    DoD Comments. The Principal Director, Deputy ASD (Deputy CIO) responded that
    OASD(C3I) disagreed with the draft report conclusion that OASD(C3I) did not comply
    with the CCA, but admitted that OASD(C3I) did not maintain adequate documentation.
    The Deputy CIO stated that OASD(C3I) is implementing the Information Technology
    Investment Portfolio System (ITIPS) to rectify any real or perceived deficiencies in
    complying with the CCA.

    Audit Response. The Deputy CIO comments were partially responsive. The Deputy CIO
    states that OASD(C3I) believes that it complied with the intent of the CCA but offered no
                                             9
   support or details as to how that conclusion was reached. To the contrary, we believe that
   the Deputy CIO made a conscious decision that certain requirements of the CCA did not
   apply to the Seat Management initiative and did not follow those requirements. Therefore,
   it makes sense that no documentation exists showing that the CCA was followed. The
   OASD(C3I) implementation of ITPS is a positive step and should meet the intent of the
   recommendation. ITIPS provides users with the ability to support the selection, control,
   and evaluation phases of an IT capital planning and investment control process. The
   system supports internal and external reporting requirements as defined by OMB Circular
   A-11. Further, ITIPS assists managers and staff involved in IT planning assess IT
   initiatives in terms of costs, risks, and expected returns. In response to the final report, we
   ask that the ASD (C3I) provide additional comments as to how and when implementation
   of ITPS will be mandated.


GSA Comments
   The Assistant Commissioner, Office of Information Technology Solutions, GSA responded
   and agreed that prior to the placement of the Seat Management order on behalf of DoD, the
   GSA contracting officer should have verified that OASD(C3I) had performed a proper
   analysis in accordance with the requirements of the CCA. GSA stated that it intends to
   review standard procedures and ensure that client agencies are cognizant of the
   requirements of the CCA, as well as other laws, regulations, policies, and executive orders
   prior to entering into contracts on behalf of GSA clients.




                                             10
Appendix A. Scope and Methodology
   Work Performed. We reviewed 15 MIPRs OASD(C3I) issued, valued at $19 million,
   related to the Seat Management initiative. We interviewed personnel involved with the
   procurement at OASD(C3I) headquarters, GSA, and WHS. We also obtained and
   reviewed contractual and programmatic documentation from Lockheed Martin,
   OASD(C3I), GSA, and WHS. We reviewed applicable laws, regulations, policies, and
   procedures relating to IT procurements. The documentation we reviewed covered the
   period from July 2000 through March 2002.

   We performed this audit from July 2001 through May 2002 in accordance with generally
   accepted government auditing standards. We did not review management controls because
   the audit was limited to the review of the Defense Hotline allegations. Furthermore, the
   review was limited to issues concerning one BPA. To render a conclusion on the
   management controls, we would have needed to review more contract actions. We did
   note that controls did exist but were not followed in this case. We relied on data from
   Lockheed Martin to determine the amount of work subcontracted to ACS, but we did not
   verify the data. In addition, we relied on data from OASD(C3I) to determine the amount
   Lockheed Martin billed for the Seat Management initiative, but we did not verify the data.

   General Accounting Office High-Risk Area. The General Accounting Office has
   identified several high-risk areas in the DoD. This report provides coverage of the DoD
   Systems Modernization high-risk area.

   Use of Computer-Processed Data. We relied on a computer-generated listing from the
   GSA database of Interagency Agreement Amendments processed through OASD(C3I).
   We did not verify the accuracy of the entire GSA listing, but the numbers and amounts of
   the Interagency Agreement Amendments that we examined agreed with the GSA list.
   Accordingly, we believed the GSA listing could be relied upon for our audit purposes.

   Use of Technical Assistance. We obtained legal assistance from the Office of General
   Counsel, DoD concerning OASD(C3I) compliance with laws and regulations pertaining to
   the CCA, Lockheed Martin’s protest settlement, and potential conflicts of interest.

   Contacts During the Audit. We visited or contacted individuals and organizations within
   DoD and within GSA (Washington, D.C.) and Lockheed Martin.




                                           11
Prior Coverage
     During the last 5 years, the Inspector General of the Department of Defense
     (IG DoD), and the Inspector General, GSA issued reports that discussed DoD
     funding for procurements of support services and information technology through
     the GSA Information Technology Fund.

IG DoD
     IG DoD Report No. D-2002-103, “Certification of the Reserve Component
     Automation System,” June 14, 2002

     IG DoD Report No. D-2000-151, “Acquisition of the Defense Joint Accounting
     System,” June 16, 2000

Inspector General, General Services Administration
     IG GSA Report No. A001031, “Review of Center for Information Security Services
     Federal Technology Service,” February 22, 2001




                                     12
Appendix B. Summary of Allegations and Audit
            Results
   The allegations and a summary of the audit results pertaining to each allegation are
   provided below.

   Allegation 1: The Deputy CIO pressured WHS to award the Seat Management contract
   before election day 2000 although no urgency existed.

   Audit Results: The allegation was partially substantiated; however, no material effect
   existed for having the contract awarded before the 2000 Presidential election
   (November 7).

   On November 3, 2000, the Deputy CIO’s staff informed WHS personnel that the Deputy
   CIO wanted the contract awarded before the Presidential election. The Deputy CIO staff
   cited no reasons for awarding the contract before this date.

   WHS requested that OASD(C3I) supply a written statement of urgency explaining the need
   to award a contract for its IT outsourcing initiative before the Presidential election. On
   November 4, 2000, OASD(C3I) sent WHS, Directorate for Information, Operations, and
   Reports an e-mail concerning the justification for the urgency of the OASD(C3I)
   outsourcing contract that stated, “OASD has an urgent requirement to convert its default IT
   network and desktops from the Non-classified Internet Protocol Router Network
   (NIPRNET) to the Secret Internet Protocol Router Network (SIPRNET).” However, we
   found no documentation that directly stated that the Deputy CIO wanted the Seat
   Management contract awarded before the Presidential election of 2000.

   Allegation 2: No cost benefit analysis or business process reengineering was done prior to
   the outsourcing of the OASD(C3I) Seat Management IT initiative and, subsequently, the
   Clinger-Cohen Act was violated.

   Audit Results: The allegation was substantiated in part. Evidence exists that OASD(C3I)
   performed cost benefit and business process reengineering analyses during the preliminary
   planning stages of the IT outsourcing project. However, the OASD(C3I) analysis was
   inadequate and failed to examine the feasibility of potential alternative options for
   improving its security vulnerabilities and did not establish quantifiable performance
   metrics for the Seat Management initiative. See the Finding for additional discussion of
   this matter.

   Allegation 3: The IT contractor was pre-selected.

   Audit Results: The allegation was unsubstantiated. We found no specific documentation
   substantiating the claim that the contracting for the IT Seat Management initiative was
   directed to a specific contractor. The OSD IT initiative was competitive and an RFQ with
   a short response time (less than 1 month) was issued to 18 contractors.

   The Seat Management initiative was a best value procurement. Best value is defined as the
   ability to deploy services with a marked improvement in the quality of IT services and the
   ability to maintain a high level of service throughout the life of the contract. The
   evaluation factors were technical, past performance, and price. Of the 18 RFQs issued, a
   qualified team reviewed the 2 proposals submitted, and the evaluators and the source
                                            13
selection authority arrived at the conclusion that Lockheed Martin had submitted the best
value proposal consistent with the evaluation factor, and should be awarded the BPA.

Allegation 4: OASD(C3I) used funds appropriated for their mission needs to outsource an
IT project.

Audit Results: The allegation was substantiated, but no material effect existed for mission
funds being allocated to augment the IT budget.

Allegation 5: Lockheed Martin gave part of its newly awarded contract to a protester so
that the protest would be dropped.

Audit Results: The allegation was substantiated, but we are unaware of any negative cost
impact that resulted from the settlement of the protest. As of November 6, 2001, ACS had
received $25,000 of subcontract work from Lockheed Martin for components of hardware
as established within the December 6, 2000, Settlement Agreement.

Allegation 6: The Office of the Under Secretary of Defense (Comptroller) was pressured
to move money to GSA on January 19, 2001, prior to Inauguration Day for the DoD share
of the FirstGov Web site.

Audit Results: We did not substantiate the allegation. See the Finding for additional
discussion of this matter.




                                        14
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
Director, Defense Procurement

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Inspector General, General Services Administration




                                              15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on Government
  Reform




                                      16
Assistant Secretary of Defense (Command,
Control, Communications and Intelligence)
Comments




                      17
General Services Administration Office of
Information Technology Solutions Comments




                     19
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of the
Inspector General of the Department of Defense who contributed to the report are listed
below.

Garold E. Stephenson
Robert K. West
Terry L. McKinney
Eric B. Edwards
LaVina N. Mensah
Damian J. Felton
Sharon L. Carvalho
